GR-90-98-034
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Justice Programs 
Service, Training, Officers, and Prosecution
Formula Grant to the Yavapai-Apache Indian Nation
Grant No. 96-WI-NX-0029
 
GR-90-98-034
December 1998
 
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an
audit of a grant number 96-WI-NX-0029, awarded by the U.S. Department of Justice (DOJ),
Office of Justice Programs (OJP) to the Yavapai-Apache Indian Nation (YAN). The YAN
received a grant of $84,000 to implement training programs for judicial, law enforcement,
substance abuse and social services staff. The grant project period was September 30, 1996
through September 30, 1998. The purpose of the Services, Training, Officers and
Prosecution (STOP) formula grants program is to develop or enhance tribal structure in
order to combat violent crimes committed against Indian women.
Our audit concentrated on, but was not limited to, the period September 30, 1996
through July 1, 1998. We tested the accuracy and reliability of the YAN s accounting
system, reviewed the general ledger, and evaluated the allowability, allocability, and
reasonableness of costs.
For purposes of review, we used the Office of Management and Budget (OMB) Circular
A-110, Grants and Agreements with Institutions of Higher Education and Other
Nonprofit Institutions OMB Circular A-122, Cost Principles for Nonprofit
Organizations OMB Circular A-133, Audits of States, Local Governments, and
Non Profit Organizations the OJP Financial Guide for the Administration of
Grants; and OJP Guideline Manual M7100.1D, Financial and Administrative Guide for
Grants.

In brief, our audit determined the YAN violated the following grant conditions:



The YAN generally was not in compliance with grant reporting requirements. An initial
      semiannual progress report was not submitted as required; the second progress report was
      not timely submitted. One Financial Status Report was not submitted and three were not
      timely submitted. In addition, discrepancies found between the Financial Status Reports
      and accounting records could not be reconciled.


These items are discussed in detail in the Findings and Recommendations section of the
report. Our scope and methodology appear in the Appendix.
#####